I
t

/

No.

In the
Supreme Court of the United States

James Hightower
Petitioner

VS.

t

LaDonna Thomndon
Defendant

■j

PROOF OF SERVICE
I James Hightower, do swear or declare that on this date, 26th January, 2021 as required by
Supreme Court Rule 29 I have served the enclosed Motion for Leave to Proceed in Forma Pauperis and
Petition (for A Writ of Certiorari on each party to the above proceeding or that parties counsel, and
every other person requires to be served, by depositing an envelope containing the above documents in
the United States mail property Addressed to each of them and with first class postage prepaid, or by
delivery to a third party commercial career for delivery within 3 calendar days.
The names and addressed of those served are as follows: United States Appeals Court Sixth Circuit
Clerk Debroha S. Hunt United States Courthouse Potter Stweart 100 East 5th Street Room 540.
Cincinnati, Oh 45202: Justice and Public Safety Cabinet 125 Holmes Street, Frankfort. Kv 40601 and
Clerk Scott S. Harris of United States Supreme Court at 1 1st NE Washington DC. 20543
I declare under penalty of perjury that the foregoing is true and correct.

Executed on ^Lf

, 202}

Signature

m
1
AT

11 Of 11

